                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              ETA NEEDS TO ENSURE GRANTEES ARE
                                              AWARE OF THEIR RESPONSIBILITIES FOR
                                              REPORTING THE LOSS OF PERSONALLY
                                              IDENTIFIABLE INFORMATION




                                                                   Date Issued: September 30, 2008
                                                                   Report Number: 02-08-205-03-360
Department of Labor                                  SEPTEMBER 2008
Office of Inspector General
Office of Audit                                      ETA NEEDS TO ENSURE GRANTEES
                                                     ARE AWARE OF THEIR
                                                     RESPONSIBILITIES FOR REPORTING
BRIEFLY…                                             THE LOSS OF PERSONALLY
                                                     IDENTIFIABLE INFORMATION
Highlights of Report Number: 02-08-205-03-360,       WHAT OIG FOUND
to the Deputy Assistant Secretary for
Employment and Training                              The allegation in the hotline complaint that Able
                                                     reported inflated performance results was not
WHY READ THE REPORT                                  substantiated. However, in retrieving
                                                     documentation for the auditors, Able discovered
We conducted a performance audit of the Senior       that it could not locate SCSEP participant
Community Service Employment Program                 records containing personally identifiable
(SCSEP) operated by National Able Network            information (PII) for 78 individuals served in
(Able) in response to a hotline complaint alleging   California. We advised Able that it needed to
that Able reported inflated performance results.     alert ETA of this PII breach and seek guidance
During our audit, we found that Able had lost        on how to appropriately respond. The
SCSEP records containing personally                  Department of Labor’s PII Breach Notification
identifiable information (PII).                      Policy requires appropriate and prompt
                                                     notification to individuals in the event of a breach
WHY OIG DID THE AUDIT                                of PII commensurate with the risk of harm. ETA
                                                     and Able officials then took appropriate action to
Our audit objective was to determine whether         notify the affected participants.
Able accurately reported placements in
unsubsidized employment for the period               Nevertheless, we noted that ETA had not
July 1, 2005 through September 30, 2006.             informed grantees of their responsibilities for
                                                     reporting the loss of PII records. As a result,
READ THE FULL REPORT                                 other grantees may fail to report incidents where
                                                     security over PII was compromised to the
To view the report, including the scope,             appropriate authorities and affected individuals.
methodology and agency response, go to:
                                                     WHAT OIG RECOMMENDED
http://www.oig.dol.gov/public/reports/oa/200
8/02-08-205-03-360.pdf                               We recommended that the Deputy Assistant
                                                     Secretary for Employment and Training:

                                                     1. Ensure that grantees are aware of their
                                                        responsibilities for safeguarding PII records
                                                        and for reporting incidents when PII security
                                                        has been compromised.

                                                     2.   Provide training to ETA staff on handling PII
                                                          security incident reports from grantees.

                                                     In response to the draft report, the Deputy
                                                     Assistant Secretary for Employment and
                                                     Training agreed with the recommendations and
                                                     has taken or plans to take actions to address the
                                                     recommendations.
                                                                 ETA Needs To Ensure Grantees Are Aware of
                                                           Their Responsibilities for Reporting the Loss of PII


Table of Contents
                                                                                                                  PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    Reported Placements Were Accurate, But Follow-up on Missing
    Records Disclosed the Grantee Was Not Aware of Its Responsibilities
    for Reporting the Loss of Personally Identifiable Information............................. 5


APPENDICES

    A. Background....................................................................................................... 11

    B. Objective, Scope, Methodology, and Criteria................................................. 13

    C. Acronyms and Abbreviations.......................................................................... 15

    D. ETA Response to Draft Report ........................................................................ 17




U.S. Department of Labor – Office of Inspector General                                                                   1
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII




                        PAGE WAS INTENTIONALLY LEFT BLANK




2                                           U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                                 ETA Needs To Ensure Grantees Are Aware of
                                                           Their Responsibilities for Reporting the Loss of PII


Executive Summary
The Office of Inspector General, Office of Audit, conducted a performance audit of the
Senior Community Service Employment Program (SCSEP) operated by the National
Able Network, Inc. (Able) for the period July 1, 2005 through September 30, 2006.
Under Employment and Training Administration (ETA) grant number AD-14143-04-60,
Able received $6.8 million to provide community service and work-based training
program for older workers.

We conducted the audit in response to a hotline complaint alleging that Able reported
inflated performance results. Our audit objective was to determine whether Able
accurately reported placements in unsubsidized employment for the period July 1, 2005
through September 30, 2006.

The allegation in the hotline complaint was not substantiated. We found that Able
accurately reported unsubsidized placements. However, in retrieving documentation for
the auditors, Able discovered that it could not locate SCSEP participant records
containing personally identifiable information (PII) for 78 individuals served in California
between July 1, 2003 and September 30, 2006. We advised Able that it needed to alert
ETA of this PII breach and seek guidance on how to appropriately respond. The
Department of Labor’s (DOL) PII Breach Notification Policy requires appropriate and
prompt notification to individuals in the event of a breach of PII commensurate with the
risk of harm. ETA and Able officials then took appropriate action to notify the affected
participants. Nevertheless, we noted that ETA had not informed grantees of their
responsibilities for reporting the loss of PII records. As a result, other grantees may fail
to report incidents where security over PII was compromised to the appropriate
authorities and affected individuals.

Prompt PII security reporting would allow ETA to more effectively fulfill its
responsibilities under the Privacy Act of 1974 1 and Paperwork Reduction Act, 2 which
require Federal agencies to establish safeguards ensuring the security and
confidentiality of records they collect.

We recommend the Deputy Assistant Secretary for Employment and Training:

       1. Ensure that grantees are aware of their responsibilities for safeguarding PII
          records and for reporting incidents when PII security has been compromised.

       2. Provide training to ETA staff on handling PII security incident reports from
          grantees.




1
    Title 5, Chapter 5, Section 552a(e)(10) of the United States Code (U.S.C.), Records Maintained on Individuals
2
    44 U.S.C. 3506(g), Federal Agency Responsibilities

U.S. Department of Labor – Office of Inspector General                                                              3
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII

ETA Response

In his response to the draft report, the Deputy Assistant Secretary for Employment and
Training outlined actions that ETA has taken or will take to address the report’s
recommendations.

The Deputy Assistant Secretary’s response is included in its entirety as Appendix D.

OIG Conclusion

Based on ETA’s actions taken and planned, both recommendations are resolved and
will be closed when we verify that corrective actions have been implemented.




4                                           U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




September 30, 2008


                          Assistant Inspector General’s Report


Mr. Brent Orrell
Deputy Assistant Secretary for Employment
 and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Inspector General, Office of Audit, conducted a performance audit of the
SCSEP operated by Able for the period July 1, 2005 through September 30, 2006.
Under ETA grant number AD-14143-04-60, Able received $6.8 million to provide
community service and work-based training program for older workers. We conducted
the audit in response to a hotline complaint alleging that Able reported inflated
performance results.

Our audit objective was to determine whether Able accurately reported placements in
unsubsidized employment for the period July 1, 2005 through September 30, 2006. For
that period, Able reported that 181 participants were placed into unsubsidized
employment.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
findings and conclusions based on the audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

Objective – Did Able Accurately Report Placements in Unsubsidized Employment
for the Period July 1, 2005 through September 30, 2006?

Results and Findings – Reported placements were accurate, but follow-up on
missing records disclosed that the grantee was not aware of its responsibilities
for reporting the loss of PII.

The allegation in the hotline complaint was not substantiated. Based on confirmations
and wage history documents, reported unsubsidized placements were accurate for the


U.S. Department of Labor – Office of Inspector General                                           5
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII

period July 1, 2005 through September 30, 2006. Under its SCSEP grant, Able
provided subsidized, part-time, community service work based training for low-income
persons age 55 or older who had poor employment prospects. The goal of the program
was to place participants into full- or part-time work for at least 30 days within a 90-day
period without subsidies from any Federal or State employment program. For the audit
period, Able’s placement goal was 23 percent and it reported 31 percent of participants
were placed in unsubsidized employment.

When retrieving documentation for the auditors, Able discovered that it could not locate
records for 78 participants served in California between July 1, 2003, and
September 30, 2006. SCSEP participant records contain PII that is used to establish
eligibility for the program, including names, social security numbers, addresses,
telephone numbers, medical histories, and financial resources.

The Department of Labor’s (DOL) PII Breach Notification Policy, Part 2, issued by the
Office of the Chief Information Officer in September 2007, states:

       . . . DOL will ensure appropriate and prompt notification in the event of a
       breach of Protected PII commensurate with the risk of harm to the
       individual(s) and consistent with Federal and Departmental standards and
       requirements.

Part 1.3 of DOL’s PII Breach Notification Policy, titled “Scope and Applicability” states:

       The provision of this policy pertains to all DOL information in paper and
       electronic form. Agency senior management shall insure that information
       managed by or on behalf of the Department receive adequate security
       protections as required by Federal and Departmental policies and
       regulations. . . .

The auditors advised Able officials that they needed to alert ETA of this PII breach and
seek guidance on how to appropriately respond. Able then promptly informed ETA and
together with DOL information security officials, took appropriate action to notify the
affected participants. Nevertheless, we noted that ETA had not informed grantees of
their responsibilities for reporting the loss of PII records. As a result, other grantees
may fail to report incidents where security over PII was compromised to the appropriate
authorities, and consequently may fail to notify the affected individuals.

As of July 10, 2008, ETA had not instructed grantees to promptly notify agency officials
when security over grantee-held PII was compromised. Furthermore, grantee officials
and ETA grant monitors had not received training on their respective responsibilities for
reporting incidents when security over grantee-held PII was compromised. To ensure
that any future losses of PII records by grantees are appropriately handled, ETA needs
to provide grantees with clear guidance on safeguarding PII and reporting incidents
when PII security breaches occur. ETA also needs to provide training to grant monitors



6                                           U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

and grantee officials regarding their responsibilities relating ensuring the security of PII
records at grantees.

Prompt notification would also allow ETA to more effectively fulfill its responsibilities
under the Privacy Act of 1974 and the Paperwork Reduction Act. The Privacy Act of
1974, 5 U.S.C. 552a(e)(10), Records Maintained on Individuals, requires agencies with
respect to information collected on individuals to:

       . . . establish appropriate administrative, technical and physical safeguards
       to insure the security and confidentiality of records and to protect against
       any anticipated threats or hazards to their security or integrity which could
       result in substantial harm, embarrassment, inconvenience, or unfairness
       to any individual on whom the information is maintained.

The Paperwork Reduction Act, 44 U.S.C. 3506(g), Federal Agency Responsibilities,
requires agencies to:

       . . . implement and enforce applicable policies, procedures, standards, and
       guidelines on privacy, confidentiality, security, disclosure and sharing of
       information collected or maintained by or for the agency . . .

Recommendations

We recommend the Deputy Assistant Secretary for Employment and Training:

   1. Ensure that grantees are aware of their responsibilities for safeguarding PII
      records and for reporting incidents when PII security has been compromised.

   2. Provide training to ETA staff on handling PII security incident reports from
      grantees.

ETA Response

In his response to the draft report, the Deputy Assistant Secretary for Employment and
Training outlined actions that ETA has taken or will take to address the
recommendations.

   1. A Training and Employment Guidance Letter (TEGL) will be sent to grantees to
      communicate PII requirements. This TEGL is expected to be issued by
      December 31, 2008. Further, The Office of Workforce Investment’s Older
      Worker Unit has notified SCSEP grantees of their obligation to immediately
      report any possible breach of PII, and national office staff were informed of this
      requirement and their responsibility to report the potential breach to the DOL
      Security Department. For 2009 grants, the Older Worker Unit will add an
      affirmation obligation to report potential breaches in PII to the list of legally-
      binding assurances that all grantees make before the grants are awarded.

U.S. Department of Labor – Office of Inspector General                                           7
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII


    2. On January 28, 2008, ETA posted a training presentation on “Use of Personally
       Owned Information Systems” which contained information on safeguarding PII
       data. On September 17, 2008, the DOL announced mandatory training for all
       DOL employees on “Safeguarding All PII.” These actions are expected to be
       fully implemented by December 5, 2008.

The agency's response is included in its entirety as Appendix D.

OIG Conclusion

Based on ETA’s actions taken and planned, both recommendations are resolved and
will be closed when we verify that the corrective actions were implemented.




Elliot P. Lewis




8                                           U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII




Appendices




U.S. Department of Labor – Office of Inspector General                                           9
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII




                        PAGE WAS INTENTIONALLY LEFT BLANK




10                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

                                                                                   APPENDIX A
BACKGROUND

The Senior Community Service Employment Program (SCSEP) is a community service
and employment training program for older workers. Authorized by the Older
Americans Act of 1965, SCSEP provides subsidized, part-time community service work
based training for low-income persons age 55 or older who have poor employment
prospects. SCSEP has a network of service providers in states across the country, as
well as the District of Columbia, Puerto Rico, the U.S. Virgin Islands and several U.S.
territories. For PY 2005, Congress appropriated $436,678,000 for SCSEP. ETA
reported that 92,000 SCSEP participants were served, and 33 percent placed in
unsubsidized employment in PY 2005.

National Able Network is a publicly and privately funded organization offering services
from multiple locations across the U.S. Since 1977, Able has provided programs to
individuals and businesses. Able serves over 40,000 job seekers and hundreds of
employers annually. For PY 2005, Able reported serving 983 participants and placing
181 in unsubsidized employment.

On June 28, 2004, Able was awarded $5.5 million under grant number AD-14143-04-60
to provide SCSEP services in California, Maine, Massachusetts, and Vermont during
PY 2004. On June 27, 2005, the grant was extended to cover PY 2005 operations and
was increased by $5.4 million. On July 1, 2006, the grant was extended again through
September 30, 2006 and increased by $1.4 million, for total PY 2005 funding of $6.8
million. Pursuant to grant competition for PY 2006, Able closed out operations in
California and Vermont, and established operations in New Hampshire.




U.S. Department of Labor – Office of Inspector General                                          11
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII




                        PAGE WAS INTENTIONALLY LEFT BLANK




12                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

                                                                                   APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

The audit objective was to determine whether Able accurately reported placements in
unsubsidized employment for the period July 1, 2005 through September 30, 2006.

Scope

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation. However, we did not assess overall internal controls.

The audit was limited to performance results. We did not seek to validate financial
results, as the objectives did not include a review of reported financial data.
Accordingly, we do not express any assurance that reported costs were allowable,
allocable, and reasonable.

Fieldwork was conducted at Able’s headquarters office located in Chicago, IL, and at
ETA’s SCSEP office in Washington, DC. For the period July 1, 2005 through
September 30, 2006, Able reported 181 participants were placed into unsubsidized
employment. We tested 100 percent of participant placements.

Methodology

In planning and performing our audit, we considered internal controls of Able’s SCSEP
grant by obtaining an understanding of the program’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our auditing procedures for the
purpose of achieving our objective. Therefore, we evaluated the internal controls that
pertained to grant participants’ employment outcomes.




U.S. Department of Labor – Office of Inspector General                                          13
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII

Our consideration of internal controls would not necessarily disclose all matters that
might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and may not be
detected.

We reviewed Able’s grant agreement, grant modifications, and Federal Project Officer’s
monitoring report. We interviewed the complainant, ETA SCSEP officials, Able
managers and staff. We conducted limited financial testing consisting of (1) reconciling
Able’s Federal Financial Status Report with general ledger transaction detail reports and
the Single Audit report; and (2) tracing judgmentally selected payroll transactions to
other supporting documents.

We obtained extracts of Able’s reported performance data from ETA’s SCSEP
Performance and Results Quarterly Progress Report system. The data extracts were
compared to performance data maintained by Able on its database. To test for data
errors, we traced data for 54 Vermont placed participants to manual SCSEP records
archived at Able’s Chicago headquarters. There were no data errors that materially
impacted reported performance. Data errors were primarily minor differences in dates,
addresses, and contact phone numbers.

We obtained unemployment insurance wage histories from California, Maine,
Massachusetts, and Vermont for all participants. For participants without wage histories
or where the histories were inconsistent with reported placements, we used telephone
contact with participants, and confirmation letters to participants and employers to verify
placement. In total, we verified 93 percent of reported placements.

With regard to the missing PII records, we obtained an inventory of participant files from
Able and verified its completeness and accuracy through comparison with participant
database and physical records found at Able. We conducted additional interviews with
Able and ETA managers regarding policies and responsibilities for safeguarding PII
records. In attempts to either locate the records or determine when the records went
missing, we received assistance from OIG investigators in conducting formal interviews
of Able staff and managers, and following up on shipping records. We referred the loss
of PII records to DOL information security officials for follow-up.

Criteria

We used the following criteria to perform this audit:

     •   Executed grant agreement, as modified (AD-14143-04-60)
     •   42 U.S.C. 3056, Title V, Older American Community Service Employment Act
     •   5 U.S.C. 552a, Records Maintained on Individuals, the Privacy Act
     •   44 U.S.C. 3506, Federal Agencies Responsibilities, the Paperwork Reduction Act
     •   DOL PII Breach Notification Policy




14                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

                                                                                   APPENDIX C
ACRONYMS AND ABBREVIATIONS


   Able               National Able Network

   DOL                Department of Labor

   ETA                Employment and Training Administration

   OIG                Office of Inspector General

   PII                Personal Identifying Information

   SCSEP              Senior Community Service Employment Program

   TEGL               Training and Employment Guidance Letter

   U.S.C.             United States Code




U.S. Department of Labor – Office of Inspector General                                          15
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII




                          PAGE WAS INTENTIONALLY LEFT BLANK




16                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
                                                     ETA Needs To Ensure Grantees Are Aware of
                                               Their Responsibilities for Reporting the Loss of PII

                                                                                   APPENDIX D
ETA RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                                          17
Report Number: 02-08-205-03-360
ETA Needs To Ensure Grantees Are Aware of
Their Responsibilities for Reporting the Loss of PII




18                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-08-205-03-360
